By First-Class Mail
and Electronic Filing

March 2, 2021

The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Attn: Danny Bickell, Esq.
Re:

Ashlyn Hoggard v. Ron Rhodes, et al., No. 20-1066

Dear Mr. Harris:
As counsel of record for respondents in the above-captioned case, I am writing
to request a 30-day extension of time to file a brief in opposition in this case to and
including April 7, 2021. The certiorari petition was filed on January 28, 2021, and
it was docketed on February 4, 2021. Without the requested extension, the brief in
opposition would be due on March 8, 2021.
The 30-day extension to file a brief in opposition to the certiorari petition is
necessary because undersigned counsel has received notice from multiple amici
of their intention to file briefs on or about March 8, 2021, in support of petitioner.
Without an extension, counsel for respondents will be unable to respond to the
arguments made in those briefs.
Thank you for your assistance. If you have any questions, please call me at
(202) 326-7951.

Hon. Scott S. Harris
March 2, 2021
Page 2
Very truly yours,

David C. Frederick
Counsel of Record for Respondents
cc:

Counsel of Record for Petitioner

